Department of Health and Human Services
         OFFICE OF
   INSPECTOR   GENERAL




THE PEER REVIEW ORGANIZATIONS
  AND STATE MEDICAL BOARDS:
          A VITAL LINK

       A MANAGEMENT ADVISORY REPORT




                 APRIL   1993 

                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                             OFFICE OF AUDIT SERVICES
The OIG’s Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessmentsof HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                             OFFICE OF INVESTIGATIONS
The OIG’s Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION                      AND INSPECTIONS
The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of Mark R. Yessian, Ph.D., Regional Inspector
General, and Martha B. Kvaal, Deputy Regional Inspector General, Boston Region, Office of
Evaluation and Inspections. Participating in this project were the following people:

Boston                                                                                 Headquartem
Russell W. Hereford, Ph.D., Project Leader                                            Alan S. Levine
Joyce M. Greenleaf, Lead Analyst

         To obtain a copy   of this report, call the Boston Regional Office at (617) 565-1050.
Department of Health and Human Services
         OFFICE OF
   INSPECTOR   GENERAL




THE PEER REVIEW ORGANIZATIONS
  AND STATE MEDICAL BOARDS:
          A VITAL LINK

       A MANAGEMENT ADVISORY REPORT




           APRIL   1993   OEI-Ol-92-00530
                 EXECUTIVE                             SUMMARY

PURPOSE

To review the status of Peer Review Organization (PRO) efforts to provide State
medical boards with information about physicians responsible for substandard medical
care.

BACKGROUND

The PROS identify physicians responsible for serious quality-of-care problems, but they 

seldom inform State medical boards about these physicians. In prior reports, we have 

expressed concern that this lack of information sharing inhibits the boards’ 

effectiveness in protecting Medicare and Medicaid beneficiaries and other citizens of 

their States. 


Most recently, in a 1990 report entitled “State Medical Boards and Medical 

Discipline,” we urged the passage of legislation that would require PROS to share case 

information with boards when they send a first sanction notice to a physician. 

Congress passed such legislation in 1990. 


FINDING 


l%e 1990 legislation has had little if any t#ect. 


The 1990 legislation included a provision that the case sharing occur after the PROS 

grant physicians “notice and hearing.” Because of uncertainty about the meaning of 

this “notice and hearing” provision, however, PROS still share little information with 

the boards. 


RECOMMENDATION

The Health Care Financing Admindration should propme kgidation manduting that
PROSprovide case information to State medical boar& when thq have confirmx& after
medical review, that a physician is mqxmsible for medical mimanagement resulting in
s&nijicant adverseejJect3on the patknt.

This approach would provide increased protection to Medicare beneficiaries and rests
on a solid overall rationale:

b      It   limits referrals to serious quality-of-care cases. 

b      It   is clear-cut and workable. 

b      It   would be fair to physicians. 

b      It   would provide valuable information to boards. 




                                                   i
We received comments on the draft report from the Health Care Financing
Administration (HCFA), Public Health Service (PHS), and Assistant Secretary for
Planning and Evaluation (ASPE) within the Department. The American Medical
Association (AMA), American Medical Peer Review Association (AMPRA), and
American Association of Retired Persons (AARP) also provided comments. The full
text of each comment appears in appendix A.

The HCFA, ASPE, and the AMA disagree with our recommendation. The HCFA
believes that our recommendation for legislation would not solve the problem because
of “the confusion created by the two current amendments.” The HCFA, ASPE, and
the AMA believe that the pending fourth scope of work, and its efforts to foster a
more cooperative relationship between PROS and physicians, will move toward
achieving this goal.

The PHS, AMPRA, and AARP concur with our recommendation to HCFA. The
PHS notes that a report from the PROS would be consistent with the requirements for
reporting other types of peer review activity to the National Practitioner Data Bank
(NPDB) and should provide useful information for the State medical boards.

We have retained our recommendation as presented in the draft report.




                                         ii
                          TABLE                    OF          CONTENTS

Executive Summary 


Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1 


     PROS and State Medical Boards 


     A Review of Recent History 


Finding          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


Recommendation            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


CommentsontheDraft                 Report       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


Appendices 


     A. Detailed Comments on the Draft Report                             . . . . . . . . . . . . . . . . . . . . . . . . A-l

     B. Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-l
                         INTRODUCTION

PURPOSE

To review the status of Peer Review Organization (PRO) efforts to provide State
medical boards with information about physicians responsible for substandard medical
care.

BACKGROUND

PROS and State Medical Boards

The PROS are organizations funded by the U.S. Department of Health and Human 

Services (HHS) to determine the appropriateness and quality of medical care provided 

to Medicare beneficiaries. They do this primarily by reviewing samples of inpatient 

medical records against standards of established medical practice. Once they 

confirm’ that a physician is responsible for a quality-of-care problem, their response 

depends on the seriousness of the problem. Even in the most serious cases,however, 

their response is almost always educational. 2 In fiscal year 1992, the PROS took the 

punitive approach of recommending that HHS exclude a physician from further 

participation in the Medicare and Medicaid programs only 14 times.3 


The State medical boards license and discipline physicians. Since 1965, when the 

Medicare and Medicaid programs were established, the Federal government has relied 

upon them to determine when physicians are legally authorized to participate in these 

programs and, when necessary, to discipline physicians. Most boards initiate 

investigations of physicians primarily on the basis of complaints or referrals made to 

them. The violations they identify sometimes involve quality-of-care problems, but 

more often they concern drug and alcohol abuse, sexual misconduct, and criminal 

behavior. Their response ranges from a license revocation to a letter of warning. In 

1991, the boards took 2,804 prejudicial actions against physicians, of which 959 

involved a loss of license or license privileges and 1,110 involved a restriction of 

license or license privileges.4 


A Review of Recent History

From the beginning of the PRO program in 1984-86, we have been concerned that
PROS seldom provide the boards with information about physicians whom they find to
be responsible for serious quality-of-care problems. We have held that this lack of
information sharing inhibits the boards’ effectiveness in protecting the citizens of their
States. Boards, we have pointed out, may not even know the identity of physicians
whom the PROS, after extensive medical review, have found responsible for
substandard or unnecessary medical care in one or more incidents.




                                             1

We first addressed this issue in a 1986 report entitled “Medical Licensure and
Discipline: An Overview” (P-01-86-00064). We addressed it again, more forcefully, in
a 1990 report entitled “State Medical Boards and Medical Discipline” (OEI-Ol-89-
00560). In that report and in testimony before Congress,5 we called for legislation
mandating that the PROS share case information with the boards when the first
sanction notice is sent to a physician. Such a notice rarely leads to an actual sanction
referral to the Federal government, but it does reflect a PRO’s considered judgment
about the quality of medical care rendered to a patient.6 This recommendation for a
statutory amendment, which had considerable support, would have addressed PROS’
concerns about how the sharing of case information could violate confidentiality
requirements under existing law.7

In 1990, Congress passed legislation calling for the PROS to share case information
with the boards. The legislation was passed in response to concerns raised by us, the
Federation of State Medical Boards, and others about the lack of information sharing
between PROS and boards.




                                            2

                                  FINDING 


b     The 1990 legishrion has had little if any fleck

Upon passage of the legislation, the Health Care Financing Administration (HCFA),
which funds and oversees the PROS, followed up by amending the PROS’ scope of
work to require that they inform boards of physicians to whom they have sent a first
sanction notice. Subsequently, however, HCFA rescinded this requirement in response
to concerns that it was not in accordance with the congressional stipulation that the
PROS must grant physicians “notice and hearing” before sending information about
them to the boards. The New York regional office of HCFA characterized the
legislation as follows:

      The statutory provisions added by section 4205(d) of OBRA ‘90 about PRO
      responsibility to notify licensing bodies concerning certain PRO actions are
      inherently inconsistent. These provisions do not provide clear authority for the
      disclosure of information other than sanction reports submitted to the Secretary
      pursuant to section 1156 (b)(l) of the Act.8

The actual sharing of case information still appears to be minimal, even for the most
serious cases. This was the clear message of a March 1992 report of the Citizen
Advocacy Center (CAC) funded by the American Association of Retired Persons
(AARP).9 In that report, the CAC reviewed the recent experiences of 10 States
where the PROS and medical boards had shown an interest in more active information
sharing. Among those States, it found that only the Ohio PRO was sending much
information to the medical board.”

The CAC extended its survey to all 50 States. In a November 1992 report, it
confirmed that little information exchange is taking place nationwide. In addition to
Ohio, CAC found that only in Mississippi, New York, and to a lesser extent Texas, are
much data flowing from PROS to medical boards concerning physicians who might be
candidates for disciplinary action.”

Ohio’s endeavor illustrates the potential for such an information exchange. From May
1990 until April 1992, the Ohio PRO has referred 75 casesto the Ohio medical board.
Of these, the board has dismissed 13 without any active investigation and another 37
after conducting some investigation. The remaining 25 are in various stages of review,
with 8 of them at an advanced stage involving the initiation of a formal action against
a physician. i2

The table on the next page summarizes the key actions from 1986 to 1991 related to
PROS sharing information with medical boards.




                                            3

                                 TABLE I 

                       KEY AClYIONS CONCERNING
                 THE PRO-STATE MEDICAL     BOARD LINKAGE
DATE                                              ACI-ION
June       An OIG report, “Medical Licensure and Discipline: An Overview,” concludes that
1986       PROS are an unproductive source of casesfor boards; recommends that PRO
           regulations be amended “to require more extensive and timely information” to boards.
March      The HCFA issues draft regulation stating that PROS “may without a request, and must,
1988       upon a request, disclose” to boards “confidential information relating to a specific case
           (or) a possible pattern of substandard care.”
October    The HCFA, in third scope of work, calls for PROS to “consider” sharing confidential
1988       case information with boards when serious quality-of-care problems are found under
           the quality intervention plan. This serves to operationalize the regulation first issued
           in draft in March 1988.

May        Missouri PRO indicates that 55 percent of the 38 PROS responding to a national
1989       survey regarded their relationship with the board to be good or excellent, but that
           about two-thirds of the PROS still had not reported any physicians to boards during
           the past 12 months.
December   The AARP convenes workshop to identity ways of achieving closer ties between PROS
1989 	     and boards. The workshop included representatives of PROS and boards from 10
           States. Participants stressed need for clearer legislative or regulatory direction on what
           information can be shared.
August     An OIG report, “State Medical Boards and Medical Discipline,” finds that PROS still
1990       refer few casesto boards. In 8 sample States, only 1 of 188 disciplinary actions taken
           by the boards is found to originate from a PRO referral. OIG recommends legislation
           mandating that PROS share case information with boards when the first sanction notice
           is sent to a physician.
December   Congress, in Omnibus Budget Reconciliation Act, requires that PROS notify boards of
1990       physicians whom they have found responsible for serious quality-of-care problems.
           Congress stipulates, however, that notification is not to occur until after “notice and
           hearing” are granted to the physicians involved.
February   The HCFA adds a provision to an early draft of the fourth scope of work stipulating
1991       that once the PRO issues a first sanction notice to a physician, it must notify the board
           of its findings and decisions.
November   The HCFA, in response to concerns expressed that the above-noted provision does not
1991       reflect the intent of the 1990 legislation, removed the provision from that early draft
           fourth scope of work.
March      The Citizen Advocacy Center, sponsored by the AARP, releases a report providing
1992       results of a survey of the 10 States that had participated in the December 1989 AARP
           conference on PRO-board relationships. The report concludes that, except in Ohio,
           very little information is being exchanged.
November   The CAC publishes findings from a nationwide survey. The report concludes that, in
1992       addition to Ohio, only in Mississippi, New York, and to a lesser extent Texas, is much
           data flowing from the PRO to the board.



                                                 4

                     RECOMMENDATION

Ihe Heal& Care Financing Adminhution shoukipmpme legislation mandating that 

PROSpmvide case information to State naedkal boar& when they have con-            afkr 

medical review, that a physician ir responsiblefor medical miwnanagement resulting in 

significant adverse#ects on the patient. 


There is considerable agreement that PROS should limit their referrals to the State 

medical boards to casesinvolving serious quality-of-care problems. The problem is in 

defining at what point in the PRO review process the referral should be made. 


In our last report, we identified the first sanction notice as the best point of referral. 

Such casesclearly are serious and would have involved at most a few hundred 

referrals a year in the entire country. Congress took the same approach, but in 

drafting the legislation added a hearing requirement that in effect has precluded 

HCFA from requiring that information be shared at the point of the first sanction 

notice. In fact, at least one major State medical society has argued that the legislatic3n 

allows for a PRO to refer a case to a board only when it makes a fina2 sanction 

recommendation after all due process procedures are carried out.13 As we noted 

earlier, there were only 14 such referrals made in FY 1992. 


We now recommend that the PROS share case information with the boards at the 

point when they have confirmed, after medical review, that a physician is responsible 

for medical mismanagement resulting in significant adverse effects on the patient. The 

HCFA would need to specify what the case information would include, but it could 

include not only demographic information on the physicians but also information on 

the type of quality-of-care problems involved and even the locations at which the 

problems occurred. 


If our recommendation were enacted, information sharing between PROS and boards 

would involve a limited number of cases. Based on the recent efforts of the PROS, 

enactment of our recommendation would result in perhaps 1,000 to 1,500 referrals for 

the entire nation.14 This is more than the few hundred expected if our prior 

recommendation had been enacted as we intended, but it is still quite modest in view 

of the more than 400,000 patient-care physicians in the United States. This approach 

would provide increased protection to Medicare beneficiaries and rests on a solid 

overall rationale as indicated below. 


It hit3 refer-ah to serious quality-of-care cases. It is clearly a serious case when PRO 

physician consultants have determined that a physician is responsible for care 

contributing to significant patient harm. % Although it does not necessarily follow 

that such a physician is incompetent or should be investigated or disciplined by the 

State medical board, it certainly is reasonable to send a report on him or her to the 

State board responsible for protecting the public from substandard medical care. 



                                             5

It ir clearcut in intent and work-able. Making a judgment on whether a physician is
responsible for medical mismanagement resulting in patient harm is clearly a part of
the PROS’ responsibilities. Under our recommendation, the PRO would automatically
inform the board once it confirmed and documented patient mismanagement resulting
in significant adverse effects on the patient.16

It wouiZ be fair to the physicians. The PROS’ determinations in these casesare made
only after PRO physicians have reviewed the relevant case information and after the
physicians under review have been granted an opportunity to explain the medical care
being questioned. If a State medical board then decides to pursue the case, the
physician is, of course, entitled to the full range of due process and appeal rights
granted under State law.

It woz&provide valuable infomation to the boards. From the boards’ perspective, the
PRO referrals would facilitate reviews of quality-of-care casesbecause they are based
on prior medical judgments of physician reviewers. Even when such casesdid not
result in a disciplinary action, they would provide information that boards could
incorporate in a computer data base to develop a profile of at-risk physicians. Such
information could provide valuable markers on the kind of preventive efforts boards
could take to avert the need for disciplinary action.




                                          6

 COMMENTS                      ON        THE         DRAFT              REPORT

We received comments on the draft report from the Health Care Financing
Administration (HCFA), Public Health Service (PHS), and Assistant Secretary for
Planning and Evaluation (ASPE) within the Department. The American Medical
Association (AMA), American Medical Peer Review Association (AMPRA), and
American Association of Retired Persons (AARP) also provided comments. The full
text of each comment appears in appendix A.

Health Care Financing Administration

The HCFA disagrees with our recommendation for three reasons. First, it believes
that our proposal for legislation would not solve the problem because of “the
confusion created by the two current amendments.” Second, it does not believe that
every initial violation or proposed action against a physician should be reported to
State medical boards. Third, it is concerned that such a requirement could damage
the cooperative relationship between PROS and physicians that HCFA is seeking to
foster under the fourth scope of work.

With regard to the first point, if the language we propose is insuficient, we offer to work
with HCFA to draft legislative language that would alleviate the problem.

With regard to the second point, we agree that actions brought against a physician that
are resolved on the basis of evidence presented to the PRO should not be reported to the
State medical board. We recommend that PROS share case information with medical
boards only for those cases that are judged to have significant adverse impacts on patients.
This referral would take place after a physician has interacted with PRO physicians and
after PRO physicians have determined that this is a serious quality-of-care problem that
requires attention, but before a formal sanction recommendation to the OIG. The boards
already receive information on malpractice claims and hospital adverse actions against
physicians. It clearly makes sense for the boards to receive information from the PROS
when they confirm serious quality-of-care problems after medical review.

 With regard to the third point, we recognize that the fourth scope of work contains
substantial changes in the role of the PROS. We have included revisions in our endnotes
 to reflect the final request for proposals that HCFA issued for this contract. The fourth
scope will focus on pattern analysis and information sharing as a way of improving overall
patient outcomes and the quality of care. We applaud broad-based efforts to improve the
quality of care for Medicare beneficiaries and for the population at large.
Notwithstanding HCFA ‘s new approach, the PROS continue to have a critical
 responsibility to protect the health of Medicare beneficiaries. This responsibility may call
for taking action against individual physicians who have significant deficiencies in their
 medical knowledge and/or practice skill& and it may mean that the PROneeds to share
 information about these practitioners with the medical board.



                                              7
Public Health Service

The PHS concurs with our recommendation to HCFA. The PHS notes that a report
from the PROS would be consistent with the requirements for reporting other types of
peer review activity to the National Practitioner Data Bank (NPDB) and should
provide useful information for the State medical boards.

 We appreciate the PHS’ positive response. We also wish to note that the types of cases we
recommend be reported to State medical boards--cases that result in significant adverse
effects on a patient--are more serious than many of the malpractice actions required to be
filed with the NPDB.

Assistant Secretary for Planning and Evaluation

The ASPE does not support our recommendation. It believes that memoranda of
agreement between PROS and State medical boards, required under the fourth scope
of work, will address the problem. The ASPE also questions whether our
recommendation would lead to exchange of information at a stage that is too early in
the process.

We believe that it is important to have in place memoranda of agreement between PROS
and State medical boards regarding the exchange of information. Unless they require the
exchange of meaningful and useful information, such memoranda, in and of themselves,
may do little to address physicians with quality-of-care problems. Without the legislative
change we recommend, the information exchanged may have no more impact than it does
at present.

We disagree with ASPE that our recommendation would lead to exchange of information
too early in the process. Information on these cases will be shared with the State medical
boards only after they have been confirmed through medical review involving the physician
and the PRO physicians.

We also are concerned that ASPE’s comments may reflect some misunderstanding. We
wish to clanjcL that this report refers strictly to the role of State medical boards, not to
State medical societies.

American   Medical Association

The American Medical Association supports, in principle, efforts to improve the
sharing of case information between PROS and State medical boards. The AMA,
however, disagrees with our recommendation. It believes that existing law and the
pending fourth scope of work are adequate to achieve this goal.

We disagree that existing law is adequate to improve this information exchange. The I990
legislation has had little effect, and the actual sharing of case information continues to be
minimal. We are concerned that the PROS, during the fourth scope of work with its focus


                                              8
on improving the mainstream of care through pattern analysis, may neglect to address
serious quality-of-care problems that require disciplinary action against individual
physicians.

American   Medical Peer Review Association

The American Medical Peer Review Association supports our recommendation and a
“a legislative ‘fix’ to OBRA 90 that would correct the drafting errors and render the
language implementable.”

We welcome AMPRA ‘s support and find it significant that the organization representing
the PROS regards the mandated referral to State boards of serious quality-of-care cases to
be consistent with their mission. Such a mandate need not preclude PROS from stressing
the educational objectives called for under the fourth scope of work.

American   Association   of Retired Persons

The American Association of Retired Persons supports our recommendation. It
suggeststhat we call for HCFA to either pursue the legislative amendment we identify,
or use its rulemaking authority to achieve the desired result.

We appreciate the AARP’s positive response. In its response to our recommendation,
HCFA cites “confusion created by the existing OBRA 90 amendments,” indicating that
regulatory redress of this provision will not solve the problem. Legislative change would
make it absolutely clear that the type of information exchange we call for is required.




                                              9

                                   APPENDIX                               A

                   DETAILED        COMMENTS ON THE DRAFT REPORT

In this appendix we present the full comments on the draft report. The comments
presented in this appendix are from:


                                                                                                   Page


The Health Care Financing Administration                  .............................             A-2 


The Public Health Service .........................................                                 A-6 


The Assistant Secretary for Planning and Evaluation                        .....................    A-9 


The American Medical Association               .................................                   A-13 


The American Medical Peer Review Association                         .......................       A-15 


The American Association of Retired Persons ..........................                             A-18 





                                                     A -1 

                                                                                Hearth Care
            DEPARTMENT    OF HEALTH & HUMAN      SERVICES                       Finananq   Admfnlstratlon



                                                                               Memorandum



sub,ecrOffice of Inspector General (OIG) Draft Management Advisory Report: “The Peer
      Review Organizations (PRO) and State Medicai Boards: A Vital Link.!’ OEI-01-92-00530

To 	     Bryan B. Mitchell
         Principal Deputy Inspector General


              We have reviewed the subject draft management advisory report which concerns
        the status of PRO efforts to provide State medical boards with information about
        physicians responsible for substandard medical care. The Omnibus Budget
        Reconciliation Act of 1990 (OBRA 90) mandates that PROS share information with
        State medicai boards.

                OIG found that the 1990 legislation mandating this information sharing has had
        little, if any, effect on improving the reiease of information from PROS to State medical
        boards. OIG believes that PROS share little information with the boards because the
        boards are uncertain about the meaning of the “notice and hearing” provision included in
        OBRA 90.

              In response to the passage of OBRA 90, the Health Care Financing Administration
        (HCFA) amended the PROS’ scope of work to require that they inform State .Medical
       boards about physicians to whom they have sent a first sanction notice. However.
       HCFA later rescinded the requirement in response to concerns that the procedure was
       not in accordance with the Congressionai stipuiation that PROS must grant physicians
       “notice and hearing” before sending information about them to the boards.

             OIG recommends that HCFA propose legislation mandating that PROS provide
       case information to State medicai boards when they have confirmed, after medicai
       review, that a physician is responsible for medical mismanagement resulting in significant
       adverse effects on the patient. HCFA does not concur with the recommendation. We
       beiieve the proposed legisiation would not correct the confusion created by the existing
       OBRA 90 amendments related to this issue. Our specific comments are attached for
       your consideration.

            Thank you for the opportunity to review and comment on this draft management
       advisory report. Please advise us whether you agree with our position on the report’s
       recommendation ar your earliest convenience.

       Attachment



                                                     A-2 

             Comments of the Heaith Care Financing Administration (HCF.4)
              on the Office of Insuector General fOIG‘I Draft Management
              Advisors Reuort: “The Peer Review Organizations And State
                    ,vedicai Boards: ,A Vital Link.” OET-01-92-00530

 OIG Recommendation

 HCFA should propose legisiation mandating that peer review organizations (PROS)
 provide case information to State medical boards when they have confirmed. after
 medical review, that a physician is responsible for medicai mismanagement resulting in
 significant adverse effects on the patient.

 HCFA Response

 HCFA does not concur with the recommendation. Although we do agree that the
 provision in the Omnibus Budget Reconciliation Act of 1990 (OBRA 90) relating to this
 issue has had little impact we do not beiieve OIG’s recommendation would solve this
 problem.

 The proposed legislation does not address, and would not correct, the confusion created
 by the two current amendments. .Any proposed correction should, at a minimum,
 remove the phrase “after notice and hearing” from section 1154(a)(9)(B) of the Social
 Security Act (the Act), and clearly state that the PRO is required to report to State
 medical boards oniy when it makes a recommendation to OIG for sanctions.

 We do not believe that an expansion of the reporting requirement to require PROS to
 report every initiai violation or even every proposed action against a physician should be
considered. .Many violations are not actionable by themselves, and many actions brought
against physicians on the basis of evidence initially available to the PRO are resolved
LIpon presentation of additiona evidence in the informal discussion or reconsideration bb
the PRO. In these cases. since the physician was found in compliance with the
provisions of section 1154 of the Act. there is no basis for any report to the State
medical board. and any earlier report would have to be corrected. Therefore. we do not
believe that PROS shouid report physicians to State medicai boards until PROS are
referring a recommended sanction to OIG.

HCFA supports an approach which encourages PROS and State medical boards to work
cooperativeiy and share information in a way that heips each of them carry out their
compiementary functions. The proposed legisiative change could damage the
cooperative relationship benveen PROS and physicians that HCFA is attempting to
foster under its new Health Care Quality Improvement Initiative.

PRO disclosure of confidentiai information to State medical boards is currently
regulated in the Code of Federal Regulations (CFR). A PRO must disclose information
lIpon request from State or Federai licensing boards, and a PRO may provide such
information at its own discretion without a formal request according to

                                             A-3
     Page 2

     12 CFR 476.138(a)(l and 2). HCFA is currently considering ways to encourage
     information sharing between the PROS and medical boards under this reguiation.

     In this regard, the PRO confidentiality regulations are currently being revised. We wiii
     consider including the requirement of mandatory disclosures to the licensing boards
     without a request and clarification on what information may be disclosed to whom and
     under what circumstances.

     As a requirement of the Fourth Scope of Work (SOW), HCFA is requiring PROS to do
     the following:

          0	   Meet with the State medical board, as well as other relevant licensing
               agencies. near the beginning of their fourth round contracts. to discuss the
               type of information that wouid be useful to the board and the PRO;

          0	   Establish a memorandum of agreement with the board within the
               first 60 days of the contract to exchange agreed upon information within
               specific timeframes; and

         0	    Implement a process for the ongoing, routine exchange of the agreed upon
               information in conformance with confidentiality and disclosure requirements
               in the statute and regulations.

 Additional Comments

 Regarding the OBRA 90 amendmenf we note that whiie the requirements of
 section 1154(a)(9)(B) of the Act are on hold. a provision included in our proposed
 regulation, HSQ-135-F, is consistent with section 4205(d) of OBRA 90. This part added
a new paragraph (D) to section 1160(b)(l) of the Act requiring PROS to provide notice
to the State medical board when the PRO submits a physician sanction recommendation
to OIG. The provision that wii1 be implemented in HSQ-135-F requires a PRO to
provide relevant portions of any PRO sanction report forwarded to OIG to StatelFederai
licensing bodies or national accreditation bodies if the report concerns practitioners or
facilities that are subject to the licensing or accreditation bodies’ jurisdiction.

Page 1 - Background. 1st paragranh. last sentence

ISthe number “12” the number of cases that OIG agreed to effectuate the recommended
exclusion(s)? Did PROS recommend sanction in more than 12 cases?




                                                 A-4 

 Page 3

 Paee 3 - 1st paraerauh. 2d sentence

 HCFA rescinded the requirement because the statute was not clear in its intent.

 Pace 4 - December 1990 Box

 There is also a provision for notification when sanction recommendations are sent to
 OIG.

 Page 4 - Februarv 1991 Box

The Fourth SOW requires PROS to develop memorandums of agreement with State
licensing boards regarding information to be exchanged. Also, it requires PRO
notification to boards when sanction recommendations are made to OIG.

Paee 5 - 3rd DaragraDh. last sentence

Same comment as page 1 - Background.

Page A-l. 6

The following language should be included after the word “violating,” “in a gross and
flagrant manner or substantially in a substantial number of cases.”

Page A-2. 15

The next PRO contracts wiil include a significantly different approach to quality review.
The focus of the quaiity review will be on: (a) description of the quality concern,
(b) outcomes, (c) causality, (d) source: and (e) type of deficiency. We recently
established a Quaiity Review Task Force composed of representatives from the
4merican Medical Association, American Hospital Association, several PROS, and
HCFA’s central and regional office staffs. The task force is to develop consistent and
uniform methods of documenting the quality review process/findings for implementing
the SOW requirements.




                                             A-5 

            DEPARTMENT OF HEALTH 8r HUMAN SERVICES                           Public Health Service



                                                                             Memorandum
Date        ’   OCT I 3   1992

From
          Assistant       Secretary       for    Health

Sublecr
          Office      of Inspector        General   (OIG) Draft  Report   "The Peer
          Review      Organizations        and State Medical    Boards:    A Vital  Link"
To
          Acting      Inspector       General,     OS

          Attached     are the Public     Health    Services      (PHS) comments on the
          subject    report.     Although   the report       contains   no
          recommendations       for PHS, we offer       general     comments and a
          series   of technical                  for your consideration.




          Attachment




                                                          A-6 

       PUBLIC HEALTH SERVICE (PHS) COMMENTS ON THE OFFICE OF INSPECTOR
        GENERAL I OIG) DRAFT REPORT "THE PEER REVIEW ORGANIZATIONS AND
             STATE MEDICAL BOARDS: A VITAL LINE,"  OEI-01-92-00530

 General       Comments
  The single        recommendation          in this report         is not directed            to PHS.
  However, we have reviewed                 its contents       and concur with the
  recommendation         that     "the Health        Care Financing          Administration
   (HCFA) should propose legislation                    mandating       that Peer Review
  Organizations         (PRO) provide           case information          to State medical
 boards when they have confirmed,                     after    medical       review,      that a
 physician       is responsible           for medical       mismanagement          resulting      in
  significant        adverse effects            on the patient."            Requiring       that a
 report       be filed    with the State medical               board after         a medical
 review is consistent              with requirements           for reporting          other types
 of peer review          activity       to the National          Practitioner         Data Bank
  (NPDB).       Such reports         from the PROS, along with NPDB reports,
 should provide          State medical           boards with additional             useful
 information         for conducting           their   proceedings.
Technical        Comments
Following      are     several      suggested      modifications        to the     text    of this
draft    report.
1. 	     The first       paragraph    of the Background           section     in the
         Executive       Summary states       that the lack         of PRO information
         reaching       State medical     boards inhibits           the boards'
         effectiveness        in protecting        Medicare      and Medicaid
         beneficiaries        and other citizens           in their     States.     We would
         suggest      that the report       state      that the lack       of sharing   of
         PRO information         probably     inhibits       the effectiveness       of the
         boards.
2. 	      The report       states     on page 1, paragraph           3, that     "The
          violations       they (State medical            boards)   identify      sometimes
          involve     quality-of-care           problems,     but more often         they
          concern drug and alcohol               abuse, sexual misconduct,              and
          criminal      behavior."         It may be more appropriate             to revise
          this    sentence      as follows:          "The actions     they (boards)         take
         against      physicians       are more likely         to be based on drug and 

         alcohol      abuse, sexual misconduct,               and criminal       behavior 

         since evidence          of a legal        nature   is required       and can be 

         obtained       and used in such cases."               State practice 

         legislation        requires      legal     evidence.      Proving     incompetence 

         legally      is very difficult            and thus boards are often             less 

         able     to take     action    against       an "incompetent"       practitioner.

         Nevertheless,         PROS should         send appropriate       information         to 

         the State boards. 




                                                     A-7 

                                                                                          2


3. 	   The same concept         as discussed    in number 2 above appears on
       page 3, paragraph         4.    Rather than repeating      the same wording
       regarding     the boards,       we would suggest    that the report
       include    a paragraph       near the beginning     that identifies   legal
       requirements      facing     State medical    boards versus     the
       decision-making        of the PROS. Emphasis should be placed on
       the PROS providing         appropriate    material    to the boards.
4. 	   On page 5, paragraph      4, the report         states  that HCFA would
       need to specify    what information          PROS should send to the
       boards which " . ..couid     include..     .information       on the type of
       quality-ofkare     problems     involved      and even the Ioeations          at
       which the problems     occurred."        We suggest     that the report
       recommend that PROS be required           to provide      this   information.




                                            A-8 

  :               DEPARTMENTOFHEALTH &HUMANSERVICES                                           Oftkeot meS~aemrv
:5 .
 5-> -d &
      27
    '+a+
      '*VW3                                                                                   Wasfmgton.   DC.   20201




         TO: 	             Bryan Mitchell
                           Pri ncipai Deputlr       Inspector       General
         FROM: 	          Assistant      Secretary     for
                          Planning      and Evaiuation
         SUBJECT: 	       OIG Draft Management Advisory         Reports:     "The Sanction
                          Referral    Authority     of Peer Review Organizationsfl       (OEI-
                          01-92-00250)     and "The Peer Review Organizations          and
                          State Medical      Boards:    A Vital  Link"   (OEI-01-92-00530)
                          -- COMPENTS
        I offer  the following             comments       on the two subject   draft    reports, 

        which I have linked              due to the       interreiatedness   of their 

        recommendations. 

         In the first       report,      you reviewed         the sanction      referral         authority

         of peer review          organizations        (PROS), of which referral                to state 

        medical     boards is one element.                You recommended several                policy

        options     for imDrovement,           including       a recommendation          requiring

        that state medical            boards be informed          whenever      a serious         quality 

        of care problem           is confirmed       through     medical     review;       this is a 

        lesser    standard        than is currently          in place.       In the second 

        report,    you specifically            examined the low frequency                with which 

        PROS referred        cases involving           physicians      cited    for poor quality 

        of care to state           medical     boards.       You reiterated        the 

        recommendation          concerning       PRO-medical      board contact          contained        in 

        the first      report. 

       I agree with the observations              made in these reports         that the 

       formal    sanction      referral    process   is not often       used. 

       Nevertheless,        I feel that the process         is critical       and, with 

       improvements,       some of which you propose          in your reports,        I

       believe     it will     play an important       role in the primarily

       educational      efforts      of the PROS under the Fourth           Scope of Work 

        (SOW).     I have the following          comments about the findings,           policy 

       options     and recommendations         of your reports. 

       0	        ReDeal or substantiallv               modifv    the unwillino        or unable
                  reouirement.           (Policv    oution     1. Reoort     on the Sanction
                 Referral       Authoritv)         I agree that the additional               evidentiary
                 hurdle      for sanction        of demonstrating.        that a physician          is
                 either      unwilling       or unable     to comply with a corrective
                 action      plan is, at present,            vague.      The report       is written
                 from the perspective             of complete       repeal,      however,     and does
                 not idenrify          how the requirement          could be meaningfully
                 modified.          I suggest     that you clarify          better   why the recent
                 legislative         change -- defining          a physician's        failure     to
                 participate         in a car---WmPtive action         plan     (CAP) as

                                                           A-9
 Page 2 - aryan           Yitchell
      d~ongtra~ed             unwillingness     cr inability   to   compiy -- is
      inadequate.             Also,    I urge you to clarify      how due process
      protections            wouid be prese,?red     in the event that the
      requirement            was modified     or rapeaied.
      Increase            the monetarr  cenait-7    sanction     substantiailv.
       (Poficv          ootion  2, Reoort    on the Sanction       Referrai      Authorit-:'
      I agree           that this   is an important       policy   opticn,      and believe
      that it           would be a desirable      alternative       for the PROS, where
      patient           safety  would not be compromised.
      Eliminate    the PROS' sanction         referral     authoritv.          'Police
      ootion    3, Report on the Sanction           Referral      Authorit-;)        This
      is a theoretical       option     only:   without     the ability       to impose
      sanctions    in the face of aberrant             or poor quality        behavior,
      PROS woul2 have little          clout   in certain       circumstances         to
      influence    physician      behavior.      I would oppose this proposai.


     Provide      sanction   authcritv      direcfiv       to the PROS. lPolicv
     ootion     4, Reoort on the Sanction              Referral      Authorirv)          The
     are artylal lv two alternatives             to OIG administration               of the
                                                                                and , giv .e
             ““LL”weI         ---_   _--   ---~_~



     sanctions      process.     The first       is to decentralize
                                                                                    The
     the PROS the direct          authority     to ixIpose sanctiors.
     second is to move the authority                 from OIG to HCFE..             .s ci .te
     Decentralization        would be undesirable              for the reason , wi .th
     on page 10 of the Sanction             Referral       Authority       report
     the additional        concern     that physician         exclusion       is t 00the
     serious     an outcome to cede without              central      review to 'eder *ai
     PROS, who are merely          the contractual           agents     of the F
     Government.
     The seccnd alternative,                having HCFA pursue              the sanction
                                                                                      ~- z--- -a­
     actions,       also may not be desi:            rable,
                                                        .-        but
                                                                  '     "
                                                                        tne   report       aoes IIUL
     provide       sufficient       information         to    evaluate      whether        the OIG
     has been too conservative                 in its       choice      of  which      cases     to
     pursue,       and whether        this   restraint          -- rejecting,          for
     example,       8 of 12 cases referred                to it in FY 1991 -- is
     itself      contributing         to the dwindling              number of cases
     proposed       for sanctions          by the PROS. It appears                   from the
     statistics         in Appendix        B that the PROS may be doing a bet',=r
     job at following           the proper        procedures          for developing           a
     solid      case.      No justification           or explanation            is provided,
     however,       for the increasincr           rate of cases rejected                   by the
     OIG for lack of medical                evidence        from FY 1988 to 1991.                  Why
     is the OIG rejecting               the medical         advice      of the PRO
     physicians?           The reoort       would be substantially                strengthened
     by an objective          evaluation         of.the       cases the OIG rejected,
     and by the discussion                of the second alternative.

0	   Maintain  PROS' sanction   referral                     authoritv      as it exists now.
                   -----
     but mandate r=+prrais    tc State                     medical     boards when F?Os

                                                    A-10
2age 3 - Zryan               Yitchell
      confirrn    seric~s     cualitv-of-care           nrcblems.         (Policv       ootion  5,
      Reoort    on   :he    Saner:sn      ?.eferrai     Aut,L=or:zv     and    recomendaticn
      of reT30rf "The ?anr Review 0raanizat:ons                        and State Medicai
      Boards:      .A Vitai    Link"      !     I do not support           this prooosal
      for seve ral reasons.             I would agree t&hat the PROS an5 the
     State medical         boards      (and hospital        licensure        authorities,
     etc.)     shouid be in closer             contact.       The most recent -versions
     of the PRO Fourth Scope of Work include                         requirements          that
     each PRO      develop     memoranda of agreement (MOAs) with such
     entities,      within     60 days after          the effective         date of its
     contract,      for the purpose           cf mutual       exchange of information
     and data.        Such mutual        exchange is far more likely                   to
     contribute       to improvement          of quality       of care than a
     legislated       requirement        for unilateral          action.
    I understand       t,hat the provision       of the 1990 Omnibus Budget
    Reconciliation         Act reguirlng     PROS to share case information
    with state      n,etiical   boards has not been imolemented        because
    it is unclear.           I understand    that a technical   correction      to
    require      the PROS to inform       boards when a sanction
    recommendation         is sent to the OIG has been sought but that
    it may not have been included              among the OBRA technicals      in
    the tax bill       that will      be sent to the President    soon.     If no
    action has been taken on the technical              change, it should be
    advanced again in the next session.
    It is not clear how the OIG's proposal would differ            from the
    technical    correction     being sought by HCFA. It would seem to
    require   involvement      of the state medical societies     at an
    earlier   stage, prior       to issuance of the sanction
    recommendation       to the OIG and prior    to the physician    having
    the full    opportunity      to review and respond to the concerns
    raised by a PRO. Except for clear instances            where patients
    are in immediate           danger,     it does not seem fair               or
    appropriate        to essentially           initiate     a parallel        investigation
    by the medical         society      until       there has been confirmation               of
    a problem.        This is particularly               a problem      in those states
    that require        all complaints           made to the state            medical
    society     to be made public,             including       reports      from the PROS.
    I do not object          to such publicity             where the physician            has
    had amole opportunity             to respond to the PRO and has been
    unwilling       or unable      to cooperate          in the development            and
    execution       of a meaningful           corrective       action     plan.     However,
    such publicity         is probably         more useful        as a potential
    sanction      than as a context            for obtaining         physician
    cooperation       for changed behavior.
   Furthermore,         It is curious    that the OIG is calling      for
   mandatory      notification      of the medical    board prior   to the
   issuance     of the sanction       recommendation     to OIG. As
   noted above, the OIG refused             to pursue 5 of 12 cases
   referred     to it in FY 1991 because cf inadequate            medical

                                             A-11
Page   4   - aryan   Xitcheil
       evidence   from the FROs.      The reports      do not explain  why it
       would be productive      or appropriate      to engage the state
       medical   societies   based on informaticn         that the OIG itself
       feels   is inadequate    to justify     a sanction.
Finally,   the first       three tables     of Aqendix      B of the report             on
the Sanction      Referral     Authority    (sanctions    referred        to the OIG,
referrals    rejected      by OIG, sanctions       mosed      by the OIG) do not
agree and should be clarified.              For FYs1987, 1988, i989 and 1991,
the sum of the sanctions            imposed and referrals         rejected      exceeds
the sanctions      referred      (cases are    resolved   in    a   later   year      than
they are referred?).           Similarly,    the   totals   for     all   years
involved   do not agree.
If   you have   any questions,       please     call   Elise   Smith   at   690-6870.




                                           A- 12 

